             United States Department of the Interior
                      OFFICE OF INSPECTOR GENERAL
                                Washington, D.C. 20240


                                                             December 19, 2003


Memorandum

To:        Commissioner, Bureau of Reclamation

From:      Roger La Rouche
           Assistant Inspector General for Audits

Subject: Management Issues Identified During the Audit of the Bureau of
         Reclamation’s Fiscal Year 2002 Financial Statements
         (Report No. C-IN-BOR-0022-2004)

         We contracted with KPMG LLP (KPMG), an independent certified public
accounting firm, to audit the Bureau of Reclamation’s (BOR) financial statements as of
September 30, 2003 and for the year then ended. In conjunction with its audit, KPMG
noted certain matters involving internal control and other operational matters that should
be brought to management’s attention. These matters, which are discussed in the attached
letter, are in addition to those reported in KPMG’s audit report on BOR’s financial
statements (Report No. C-IN-BOR-0077-2003) and do not constitute reportable
conditions as defined by the American Institute of Certified Public Accountants.

       The recommendations will be referred to the Assistant Secretary for Policy,
Management and Budget for tracking of implementation. If you have any questions
regarding KPMG’s letter, please contact me at (202) 208-5512.

        The legislation, as amended, creating the Office of Inspector General, (5 U.S.C.A.
App. 3) requires semiannual reporting to Congress on all audit reports issued, actions
taken to implement audit recommendations, and recommendations that have not been
implemented. Therefore, this report will be included in our next semiannual report.

Attachment



cc:     Assistant Secretary for Water and Science
        Chief Financial Officer, Bureau of Reclamation
        Director, Office of Financial Management
        Audit Liaison Officer, Water and Science
        Audit Liaison Officer, Bureau of Reclamation
        Focus Leader for Management Control and Audit Followup,
        Office of Financial Management
             15 West South Temple
             Suite 1500
             Salt Lake City, UT 84101




November 3, 2003


The Commissioner of the United States Bureau of Reclamation and the Inspector General
United States Department of the Interior
Washington, D.C.

Ladies and Gentlemen:

We have audited the financial statements of the Bureau of Reclamation (Reclamation) as of and for the
year ended September 30, 2003 and have issued our report thereon, dated November 3, 2003. In planning
and performing our audit of the financial statements of Reclamation, we considered internal controls over
financial reporting in order to determine our audit procedures for the purpose of expressing our opinion on
the financial statements and not to provide assurance on internal controls over financial reporting. We have
not considered internal controls over financial reporting since the date of our report. Our consideration of
internal controls over financial reporting identified the following reportable conditions:

Reportable Condition That Is Considered to be a Material Weakness

    A. Controls over land inventory.

Other Reportable Conditions

    B. Application and general controls over financial management systems;

    C. Controls over construction-in-progress and structures and facilities accounts;

    D. Controls over accrued liabilities;

    E. Controls over revenue recognition on prepayment of repayment contracts; and

    F. Controls over accounting for intradepartmental transactions.

During our audit, we noted certain matters involving internal controls over financial reporting and other
operational matters, not included in our above referenced report as material weaknesses or reportable
conditions, that are presented for your consideration. These comments and recommendations, all of which
have been discussed with the appropriate members of management, are intended to improve internal
controls over financial reporting, or result in other operating efficiencies.




               KPMG, LLP. KPMG LLP, a limited liability partnership, is
               a member of KPMG International, a Swiss association.
The Commissioner of the United States Bureau of Reclamation and the Inspector General
United States Department of the Interior
November 3, 2003
Page 2


 1.    Leases

       During our audit, we noted that Reclamation had improperly classified two of its capital leases as
       operating leases. The lease agreements contained a bargain purchase option, which requires
       treatment as a capital lease. We also noted that Reclamation has not established a process or
       posting routines for recording and tracking capital leases. Furthermore, the schedule of
       Reclamation leases received in the current year included several leases that were initiated in prior
       years, but excluded from the population of leases received in the prior year.

       Recommendation
       We recommend that Reclamation improve their process for tracking operating and capital leases.
       Reclamation should also implement procedures to ensure that leases meeting the capitalization
       criteria are recorded as capital leases in accordance with Statement of Federal Financial
       Accounting Standards No. 5, Accounting for Liabilities of the Federal Government, and track the
       lease activity using proper posting routines.

2.     Suspense Treasury Symbols

       During our audit, we noted that Reclamation does not consistently reconcile certain suspense
       accounts, or investigate and resolve the contents of these suspense accounts in a timely manner.
       Within the budget clearing accounts, 10% of the line items were transactions from FY89 to FY00
       that had not been cleared. In addition, some of the balances within the accounts were unidentified
       and supporting documentation could not be provided.

       Recommendation

       We recommend that Reclamation reconcile the budget clearing accounts, and investigate and
       resolve the contents of suspense accounts in a timely manner. Reclamation should ensure that
       entries to resolve suspense accounts are properly supported.

3.     Supporting Documentation from Finance Offices

       During our audit, we noted that although many of our sampled items were properly supported and
       in accordance with accounting principles generally accepted in the United States of America, there
       were some cases where Reclamation finance offices were not providing adequate documentation
       when the auditors requested support for their sampled transactions. As a result, the documentation
       provided does not support that the transactions are reported in accordance with accounting
       standards or in accordance with the standard general ledger, and in some cases does not support the
       adequacy of internal controls tested. In general, two types of problems exist:

       a. Documentation lacks third-party support. Internally generated documents are provided as
          support, which is insufficient. More detailed explanation and background information is
          needed supporting the transaction.

       b. Documentation is not clearly traceable to support that the transaction was recorded to proper
          standard general ledger accounts and in accordance with Reclamation, Department of the
          Interior, or Federal Accounting Standards Advisory Board (FASAB) guidance.
The Commissioner of the United States Bureau of Reclamation and the Inspector General
United States Department of the Interior
November 3, 2003
Page 3


        Recommendation
        We recommend that Reclamation improve quality controls to ensure that all transactions are
        properly documented in accordance with proper standards. We also recommend that Reclamation
        require each finance office to review documentation before it is supplied to the auditors to confirm
        its adequacy and relevance.

A summary of the status of prior year management letter comments is included as Exhibit I.

Our audit procedures are designed primarily to enable us to form an opinion on the financial statements,
and therefore may not bring to light all weaknesses in policies and procedures that may exist. We aim,
however, to use our knowledge of Reclamation’s organization gained during our work to make comments
and suggestions that we hope will be useful to you. Should you have any questions concerning the matters
presented herein, we would be pleased to discuss them with you at any time.

This report is intended for the information and use of Reclamation and the Department of the Interior’s
management, the Department of the Interior’s Office of the Inspector General, the Office of Management
and Budget, the General Accounting Office, and the U.S. Congress. However, this report is a matter of
public record, and its distribution is not limited.

Very truly yours,
                                                                                        Exhibit I

                            Bureau of Reclamation
       Summary of the Status of Prior Year Management Letter Comments
                              September 30, 2003


Ref                       Condition                                      Status

1     Reclamation has a significant amount of multiyear     Reclamation disagreed with this
      repayment contracts where payment is received         finding, as there is no financial
      annually or semiannually. By booking repayment        impact to the annual financial
      contract revenue at the time of billing, there is a   statements. If quarterly financial
      revenue recognition issue for quarterly reporting     statements become required, we
      since the revenue is earned over the year.            recommend      this    topic   be
                                                            revisited.

2     Reclamation was not able to ensure that the Water This      condition       has    been
      Authorities accurately and consistently measure the corrected.
      water deliveries and, therefore, the revenues for the
      Central Valley Project.

3     Reclamation had excluded certain overdue This            condition          has    been
      receivables from the allowance calculation based corrected.
      upon the status code classification.

4     Reclamation did not have adequate controls This            condition        has    been
      pertaining to credit card accounts. Management did corrected.
      not properly approve two of the ten statements of
      cardholders sampled.

5     Reclamation did not establish and implement This    condition               has    been
      specific posting models in FFS for Required corrected.
      Supplemental Stewardship Information (RSSI)
      transactions.

6     Reclamation conducted only one HAZ-MAT audit This           condition       has    been
      during fiscal year 2002. This was not in accordance corrected.
      with policies established in the Resource
      Conservation and Recovery Act or Reclamation’s
      policy requiring five audits of area facilities and/or
      audit regional work each year.
Ref                      Condition                                     Status

7     Reclamation recorded revenue from irrigation This           condition     has   been
      assistance during fiscal year 2002 that should have corrected.
      been recorded during fiscal year 2003.

8     Reclamation’s policies and procedures for recording This condition        has   been
      the disposal of assets were inadequate. Although corrected.
      the assets were removed from the accounting
      records, gains and losses from such disposals where
      cash is received were not recorded properly.

9     Reclamation had improperly classified a capital This condition has not been
      lease as an operating lease. The lease agreement corrected and is repeated in fiscal
      contained a bargain purchase option, which requires year 2003.
      treatment as a capital lease. We also noted that
      Reclamation had not established a process or
      posting routines for recording and tracking capital
      leases.
